U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

February 25, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Retail Ready Career Center, Inc. v. United States of America,
S.Ct. No. 19-970

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 30,
2020, and placed on the docket on February 3, 2020. The government's response is due on
March 4, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 3, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0970
RETAIL READY CAREER CENTER, INC.
USA

JACKG.B. TERNAN
TERNAN LAW FIRM, PLLC
1400 PRESTON ROAD
SUITE 400
PLANO, TX 75093
972-665-9939
JT@TERNANLAWFIRM.COM

